20-5781^

*-1

"■

"I

No.

. \

i i.

IN THE

Supreme Court, U.S.
. F!!.rO

SUPREME COURT OF THE UNITED STATES

AUG 0 7 2020

8TH JUDICIAL CIRCUIT

■ OFFir.

H • ' _ 1. P. n K

ABDUR-RASHID MUHAMMAD #73537 _ PETITIONER

(Your Name)
vs.
STATE OF NEBRASKA

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO
CLERK OF THE NEBRASKA SUPREME COURT AND NEBRASKA COURT OF APPEALS
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

ABDUR-RASHID MUHAMMAD # 73537
(Your Name)
P.O. BOX 22500

(Address)
LINCOLN, NE 68542-2500

(City, State, Zip Code)

RECEIVED
SEP - 8 2020
0FFICE OF THE OLERK
SUPREME COURT, U.S.

(402) 471-3161

(Phone Number)

RECEIVED
AUG 1 8 2020
OFFICE OF THE CLERK
SUPREME COURT, U.S.

QUESTION(S) PRESENTED
1. DID THE DISTRICT COURT JUDGE ROBERT R. OTTE ERROR, In denying th’eePetitioner' s
Petition For Writ Of Habeas Corpus & Emergency Ex Parte Motion For Bond Pending
Petition For Writ Of Habeas Corpus, when the Petitioner did show cause of action
for his discharge pursuant to Neb. Rev. Stat. § 29-2801?
2. DID THE DISTRICT COURT JUDGE ROBERT R. OTTE ERROR, In denying the Petitioner
an Evidentiary Hearing on the facts that was presented in the Petitioner's
Petition? and was it Error to not grant that hearing pursuant to.Neb. Rev. Stat. §
29-2805?
3. DID THE DISTRICT COURT JUDGE ROBERT R. OTTE ERROR, In denying the Petitioner
his discharge pursuant to Neb. Rev. Stat. § 29-2801, once the Petitioner raised
the issue of the fact, that there was a Breach Of Plea Agreement that occurred
and thus was " PLAIN ERROR " that leaves the proceedings " VOID AND NULL " which
includes the Sentence, Judgment, Conviction and Commitment*
* 4. DID THE DISTRICT COURT JUDGE ROBERT R. OTTE ERROR, In denying the Petitioner
his discharge pursuant to Neb. Rev. Stat. § 29-2801, when the record shows that
the District Court Judge had charged the Petitioner with three VOID and UNCONSTIT­
UTIONAL nonexisting Offense's, Indictment's and Information that don't exist on
the record, nor was put forth on the record as being apart of the Petitioner's
Contract/Plea Agreement, nor didithePPetitioner agree to be charged and plead
guilty to those three " VOID AND NULL " Offense's, Indictment's & Information*
5. DID THE DISTRICT COURT JUDGE ROBERT R. OTTE ERROR, In denying the Petitioner
his discharge pursuant to Neb. Rev. Stat. § 29-2801, when the record reflects
that there was no acceptance on the Petitioner's guilty plea to that VOID and
UNCONSTITUTIONAL " COUNT IV " ( ORIGINAL INFORMATION ).
6. DID THE DISTRICT COURT JUDGE ROBERT R. OTTE ERROR, In denying the Petitioner
his discharge pursuant to Neb. Rev. Stat. § 29-2801, when the record reflects

that the Court had accepted the Petitioner's guilty plea on a VOID and UNCONSTIT­
UTIONAL nonexisting Offense, Indictment and Information on that " COUNT III OF
THE SECOND AMENDED INFORMATION
7. DID THE DISTRICT COURT JUDGE ROBERT R. OTTE ERROR, In denying the Petitioner
his discharge pursuant to Neb.

Rev. Stat. § 29-2801, when the record reflects

that the Petitioner was never charged with a " COUNT V ", but the Court is on
the record accepting a guilty plea to a " COUNT V
8. DID THE DISTRICT COURT JUDGE ROBERT R. OTTE ERROR, In denying the Petitioner
his discharge pursuant to Neb. Rev. Stat. § 29-2801, when the District Court Of
Sarpy County, Nebraska lost all Jurisdiction over the subject matter, had no
Personal Jurisdiction over the Petitioner and had no Legal Basis to impose any
sentence on those three VOID and UNCONSTITUTIONAL nonexisting Offense's, Indictment's
and Information, once that Breach Of Plea Agreement rendered everything in the
proceedings " VOID AND NULL ", which does include the Sentence, Judgment, Conviction
and commitment.
9. DID THE DISTRICT COURT JUDGE ROBERT R. OTTE ERROR, In denying the Petitioner
his discharge pursuant to Neb. Rev. Stat. § 29-2801, when the Commitment order that
was given, was VOID and UNCONSTITIONAL because of the Judge's failure to charge
the Petitioner with the Correct and only Offense's, Indictment's and Information
that exist on the record, and that was put forth on the record, and to what the
Petitioner had agreed to and understood that he was going to be charged with?
10. DID THE DISTRICT COURT JUDGE ROBERT R. OTTE ERROR, In denying the Petitioner
his discharge pursuant to Neb. Rev. Stat. § 29-2801, when both of the Petitioner's
Trial Counsel and Direct Appeal Counsel was " Incompetent " & " Ineffective " at
a " Critical Stage " in a Criminal Proceeding?
11. DID THE DISTRICT COURT JUDGE ROBERT R. OTTE ERROR, In denying the Petitioner's
Motion For Appointment Of Counsel for his Petition For Writ Of Habeas Corpus, when
there was a need for effective discovery of the Petitioner's facts that was alleged

in the Petitioner's Petition.
12. DID THE DISTRICT COURT JUDGE ROBERT R. OTTE ERROR, In denying the Petitioner's
Emergency Ex Parte Motion For Bond on 03/03/2020 without a stated reason and thus
was Arbitrarily and Unreasonably.
13. DID THE DISTRICT COURT JUDGE ROBERT R. OTTE ERROR, In that Erroneous order
that was given on 04/06/2020, when the record reflects that the Petitioner isn't
Legally Committed on a Sound nor Just Felony Conviction and thus the Petitioner
still has that right to bail pursuant tb* Provision of Section 9, Art I, of the
Constitution.
14. DID THE NEBRASKA COURT OF APPEALS ERROR, when the Petitioner was denied relief
by the Court Of Appeals, even-though the Court Of Appeals cannot determine the
Constitutionality of a Statue?
15. DID THE NEBRASKA COURT OF APPEALS ERROR, when the Petitioner was denied relief
for his Motion For Stipulation Of Appellant For Summary Reversal § 2-107(C)
(Reissue 2020), when the Petitioner raised an issue of a " Clear Error " of Law?
16. DID THE NEBRASKA SUPREME COURT ERROR, In denying the Petitioner's Motion For
Rehearing And Supporting Brief, when the Petitioner's Brief was sent back to him by
mistake and the Petitioner had to remail off his Brief?
17.

DID THE NEBRASKA SUPREME COURT ERROR, In denying the Petitioner's Motion To

Expand Brief Page Limit for the Petition For Further Review And Memorandum Brief,
when the Petitioner advised the Court that he believes that the current page limit
of 10 pages can't sufficiently raise the issue relative to the request for Further
Review in this matter?
18. DID THE NEBRASKA SUPREME COURT ERROR, In denying the Petitioner's Petition For
Further Review, without giving an appealable answer other than " Petition of appellant
for further review denied. " ?
19. DID THE NEBRASKA SUPREME COURT ERROR, In denying the Petitioner's Petition For
Further Review, when it was warranted in this matter?

20. DID THE NEBRASKA SUPREME COURT ERROR, In denying the Petitioner's Petition For
Further Review, when the District Court and the Court Of Appeals proceedings resulted
in a decision that was based on an unreasonable determination of the facts in light
of the evidence presented in the District Court and the Court Of Appeals proceeding?
21. DID THE NEBRASKA SUPREME COURT ERROR, In denying the Petitioner's Petition For
Further Review, when the Petitioner did rebut the presumption of correctness by clear
and convincing evidence that does show and prove that the Petitioner was charged
with three VOID and UNCONSTITUTIONAL nonexisting Offense's, Indictment's and Information
by the District Court Judge and thus was a Breach Of Plea Agreement?

LIST OF PARTIES

| j All parties appear in the caption of the case on the cover page.
[xj All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

THE DISTRICT COURT OF LANCASTER COUNTY, NEBRASKA
575 S. 10TH STREET
LINCOLN, NEBRASKA 68508-2810

THE COURT OF APPEALS FOR THE STATE

OF NEBRASKA

2413 STATE CAPITOL
P.O. BOX 98910

LINCOLN, NEBRASKA 68509-8910

THE NEBRASKA SUPREME COURT
2413 STATE CAPITOL
P.O. BOX 98910
LINCOLN, NEBRASKA

Muhammad V. Scott Frakes Et A1 •

9

68509-8910

Case No. A-20-0260, Clerk Of The Nebraska Supreme

Court And Court Of Appeals. Judgment Pending
Muhammad V. Scott Frakes Et A1 •

9

Case No. A-20-0444, Clerk Of The Nebraska Supreme

Court And Court Of Appeals. Judgment Pending

TABLE OF CONTENTS
OPINIONS BELOW

1=2

JURISDICTION

.3

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

.4

STATEMENT OF THE CASE

5-23

REASONS FOR GRANTING THE WRIT

.24-25

CONCLUSION.....

.26

INDEX TO APPENDICES

APPENDIX A
REVIEW

DECISION OF STATE SUPREME COURT DENYING PETITION FOR FURTHER

APPENDIX B

DECISION OF STATE COURT OF APPEALS SUSTAINING APPELLEE'S MOTION

FOR SUMMARY AFFIRMANCE & DENYING APPELLANT'S MOTION FOR STIPULATION
APPENDIX C DECISION OF LANCASTER COUNTY DISTRICT COURT DENYING PETITION
FOR WRIT OF HABEAS CORPUS & EMERGENCY EX PARTE MOTION FOR BOND ETC
APPENDIX D
APPENDIX E
APPENDIX F

TABLE OF AUTHORITIES CITED
CASES

PAGE #

STATE V. RING, 233 NEB. 720 (1980)........................................

10

STATE V. PRUETT, 263 NEB. 99 (2002)......................................

10

CANTON V. STATE, 291 NEB. 939, 869 N.W. 2D 911 (2015)..

12

MINGUS V. FAIRBANKS, 1982, 211 NEB. 81, 317 N.W. 2D 770

12

IN RE WINSHIP, 397 U.S. 358, 364, 90 S. CT. 1068, 1072, 25 L. ED. 2D 368 (1970)
12
SPEINGER V. RANDALL, 357 U.S. 513, 785 S. CT. 1332, 2 L. ED. 2D 1460 (1958)..12
DUTIEL V. STATE, 135 NEB. 811, 284 N.W. 321 (1939).................... .

13,14,15,16

STATE V. ENGLEMAN, 5 NEB. APP. 484, 560 N.W. 2D 851 (NEB.APP. 1997)

13

STATE V. LONG, 205 NEB. 252, 286 N.W. 2D 772 (1980)............................

13

IN RE APPLICATION OF DUNN, 150 NEB. 669, 35 N.W. 2D 673....................

18

SWANSON V. JONES, 151 NEB. 767, 39 N.W. 2D 557......................................

18

EVITTS V. LUCEY, 469 U.S. 387, 393, 105 S. CT. 830, 83 L. ED. 2D 821 (1985)..19
HALBERT V. MICHIGAN, 545 U.S. 605, 610, 125 S. CT. 2582, 162 L. ED. 2D 552
(2005)

19

U.S. V. ADDORIZIO, 442 U.S. 178, 185, 99 S. CT. 2235, 60 L. ED. 805 (1979)...19
KELLER V. U.S., 657 F. 3D. 675, 681 (7TH CIR.2011)........

19

FORD V. STATE 42 NEB. 418 60 N.W. 960 (1894)....................

.23

EX PARTE MAHER, 1994, 144 NEB. 484, 13 N.W. 2D 653........

24

JOHNSON V. GAGE, 2015, 858 N.W. 2D 837, 290 NEB. 136...

24

TYLER V. HOUSTON, 2008, 744 N.W. 2D 410, 274 NEB. 916..

24

BRADLEY V. HOPKINS, 1994, 246 NEB. 646. 522 N.W. 2D 394

24

STATUTES AND RULES
NEB. CT. R. APP. P. § 2-107 (C) (REISSUE 2020)

4,5

NEB. CT. R. APP. P. § 2-107 (C)(1).................. .

5

NEB. REV. STAT. § 29-2805

4

NEB. CT. R. APP. P. § 2-113(A)

5

NEB. REV. STAT. § 29-2801

4,9,12,17,24

,25,26
NEB. CONST. ART. I § 3

13

NEB. REV. STAT. § 29-2823

21,22

NE. REV. STAT. CONST. ART I, § 9

4,22

OTHER
U.S. CONSTITUTION AMENDMENT V AND XIV

4,13

U.S. CONSTITUTION AMENDMENT IV

4

U.S. CONSTITUTION AMENDMENT VIII

4

PROVISION OF SECTION 9, ART I, OF THE CONSTITUTION.

22

1978 BAIL AMENDMENT

22

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW

[ ] For cases from federal courts:

to

The opinion of the United States court of appeals appears at Appendix
the petition and is
or,
L j reported at
L J has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is
J or,
[ ] reported at
L j has been designated for publication but is not yet reported; or,
L J is unpublished.
[

For eases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix ... A., to the petition and is
; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
P] is unpublished.
court
The opinion of the NEBRASKA COURT OF APPEALS
appears at Appendix__ §_ to the petition and is
; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[X] is unpublished.
1.

to

The opinion of the DISTRICT COURT OF LANCASTER COUNTY, Court
appears at Appendix C to the Petition and is
[X] is unpublished.

2.

JURISDICTION

THE DATE ON WHICH THE HIGHEST STATE COURT DECIDED MY CASE WAS 08/04/2020
A COPY OF THAT DECISION APPEARS AT APPENDIX

A

A TIMELY PETITION FOR FURTHER REVIEW WAS THEREFORE DENIED ON THE FOLLOWING DATE:
08/04/2020

, AND A COPY OF THE ORDER DENYING THAT PETITION FOR FURTHER REVIEW

APPEARS AT APPENDIX

A

THE JURISDICTION OF THIS COURT IS INVOKED UNDER 28 U.S.C. § 1257(A).

3.

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
U.S.C.A., AMENDMENT V; AMENDMENT IV; AMENDMENT VIII & AMENDMENT XIV

NE. REV. CONST. ART. I, § 9

NEB. REV. STAT. § 29-2801
NEB. REV. STAT. § 29-2805
NEB. REV. STAT. § 2-107(C) (REISSUE 2020)

4.

STATEMENT OF THE CASE
On 02/06/2020 the District Court Judge Robert R. Otte, entered an order denying the
Petitioner's Petition For Writ Of Habeas Corpus, Emergency Ex Parte Motion For Bond
& Motion For Appointment Of Counsel. The Petitioner timely filed a Notice Of Appeal
. for that denial. Th'e^Petitionerrthan filed his Brief # A-20-0117 with the Court Of
Appeals for the State Of Nebraska and simultaneously filed a Motion For Bond.TIhe
Petitioner also filed a Motion For Response To State's Motion For Summary Affirmance
And Brief In Support Thereof & a Motion For Stipulation Of Appellant For Summary
Reversal § 2-107(C) (Reissue 2020). The Court Of Appeals denied the Petitioner's
Motion For Bond on 03/25/2020 and stated: " Motion of appellant for appeal bond
denied ". On 06/08/2020 the Court Of Appeals, sustained the Appellee's Motion For
Summary Affirmance and over ruled the Petitioner's " motion for stipulation of
appellant for summary reversal " pursuant to Neb. Ct. R. App. P. § 2-107(C) (1).

The Court Of Appeals does not have Jurisdiction to decide Constitutionality
of a statue, and thus it was Erroneous for the Court Of Appeals to rule on this
matter, and it was Erroneous to deny the Petitioner Relief on that statement of
" Appellant's petition for writ of habeas corpus alleged facts constituting an
improper collateral attack on his conviction and sentence ".

On 06/15/2020 the Petitioner filed a Verified Motion For Rehearing
And Supporting Brief with the Supreme Court For The State Of Nebraska. On 06/25/2020
the Nebraska Supreme Court And Court Of Appeals gave the following order " Motion
of appellant for rehearing overruled for failure to comply with Neb. Ct. R. App.
P. § 2-113(A) ", the Petitioner's Brief that was mailed off with his Motion For
Rehearing, was sent back to him,’ because’ the institutional check for postage that
was attached with it, someway, somehow, got removed from the Envelope and thus the
5.

Petitioner had to redo the Notary and the date for the Certificate Of Service.
The Petitioner than sent his Appellant Brief For Rehearing off to the Nebraska
Supreme Court and Court Of Appeals and one copy to the Attorney's for the Appellee.
Even-though it was now to late, the Petitioner still filed that Brief. On
the Petitioner timely filed a Verified Petition For Further Review And Memorandum
Brief for case no. A-20-0117. On 08/04/2020 the Nebraska Supreme Court denied the
PPetitioner's Petition For Further Review and the only statement that was given was
m?

Petition of appellant for further review denied "

On February 22,2011, the Petitioner was charged by the District
Court Of Sarpy County, Nebraska, with three VOID and UNCONSTITUTIONAL nonexisting
Offense's, Indictment's and Information of " COUNT IV " ( ORIGINAL INFORMATION ),
" COUNT III OF THE SECOND AMENDED INFORMATION " & " COUNT V IN A SECOND AMENDED
INFORMATION ", as seen in the B.O.E. PAGE 68:4—24. The Judge in this matter, had
committed a " PLAIN ERROR " because this was a Breach Of Plea Agreement, and thus
everything in the proceedings following that Breach Of Plea Agreement is now " VOID
AND NULL " and this does include the Sentence, Judgment, Conviction and Commitment.
The three charges that was charged to the Petitioner, as seen in the B.O.E PAGE
68:4-24, don't exist on the record, nor was put forth on the record as being apart
of the Petitioner's Contract/Plea Agreement, nor is the Petitioner on the record
agreeing to or understanding that he was going to be charged and plead guilty to
these three VOID and UNCONSTITUTIONAL nonexisting Offense's, Indictment's and
Information of " COUNT IV " ( ORIGINAL INFORMATION ), " COUNT III OF THE SECOND
AMENDED INFORMATION " & " COUNT V IN A SECOND AMENDED INFORMATION ". Because of the
" PLAIN ERROR " and Breach Of Plea Agreement, the District Court Of Sarpy County,

6.

Nebraska lost all Jurisdiction over the subject matter, didn't have any Personal
Jurisdiction over the Petitioner, and thus did exceed it's Unlawful Authority in
imposing any sentence of these three VOID and UNCONSTITUTIONAL nonexisting Offense's,
Indictment's and Information. The Petitioner was deprived of his LIBERTY by means
of a "VOID AND NULL " Sentence, Judgment, Conviction and Commitment that was all
obtained in violation of the Petitioner's Constitutional Right's for Due Process
and the right for " Equal Protection " against the law.

As seen in the B.O.E. PAGE 56:2-25 & (T22), " COUNT IV " ( ORIGINAL
INFORMATION ) was amended by the State for the second time to remove the language
of " RECKLESSY CAUSE SERIOUS BODILY INJURY " and thus the State changed that Offense,
Indictment, and Information from an Unintentional Crime to a Intentional Crime,
once the State changed the " NATURE " and " IDENTITY " of that ” COUNT IV " (
ORIGINAL INFORMATION ) by that removal of that language of " RECKLESSY CAUSE SERIOUS
BODILY INJURY ". After the State made that change, the State put forth on the record
that it was than known and labelled as " COUNT IV AMENDED " " SECOND AMENDED
INFORMATION ", as seen in the B.O.E. PAGE 56:2-25 & (T22). " COUNT IV " ( ORIGINAL
INFORMATION ) no longer exist on the record, because the State had ABANDONED and
DISMISSED it for that new " COUNT IV AMENDED

If II

SECOND AMENDED INFORMATION " and

thus the Petitioner could no longer be charged, nor plead guilty to a " COUNT IV "
( ORIGINAL INFORMATION ), the Petitioner could only be charged and plead guilty to
that new " COUNT IV AMENDED "!

The District Court, no longer had any Jurisdiction over that ABANDONED and
DISMISSED nonexisting Offense, Indictment and Information of " COUNT IV " ( ORIGINAL
INFORMATION ) and thus there is no Personal Jurisdiction over the Petitioner for
that VOID and UNCONSTITUTIONAL " COUNT IV " ( ORIGINAL INFORMATION ) that was charged

7.

to the Petitioner, as seen in the B.O.E. PAGE 68:4-9. The Judge failed to charge
the Petitioner with the Correct Offense, Indictment and Information of " COUNT IV
AMENDED ", that was filed by the State, as seen in the B.O.E. PAGE 56:2-25 & (T22),
and to what was put forth on the record as being apart of the Petitioner's Contract/
Plea Agreement, as seen in the B.O.E. PAGE'S 53:4-14; 53:15-18 & 54:6-17, and to
what the Petitioner had agreed to and understood to what he was going to be charged
with, as seen in the B.O.E. PAGE'S 54:21—25 & 55:1—4, and therefore the District
Court Of Sapry County, Nebraska didn't have any Legal Basis to impose any sentence
in this matter and by doing so, the District Court did exceed it's Unlawful Authority
in this matter by imposing that Sentence of 20-20 years on that VOID and UNCONSTIT­
UTIONAL ABANDONED and DISMISSED nonexisting Offense, Indictment and Information of
" COUNT IV " ( ORIGINAL INFORMATION ). The District Court Of Sarpy County, Nebraska
also violated the Petitioner's right against Double Jeopardy on that ABANDONED and
DISMISSED " COUNT IV " ( ORIGINAL INFORMATION ) that was charged to the Petitioner
as seen in the B.O.E. PAGE 68:4-9.

" COUNT III " nor " COUNT V " was never amended to the record or on
the record by the State. There is no record of " COUNT III " nor " COUNT V " being
amended to the " SECOND AMENDED INFORMATION " by the State, as seen in the B.O.E.
PAGE 56:2-25 & (T22). The Petitioner was charged with two VOID and UNCONSTITUTIONAL
nonexisting Offense's, Indictment's and Information of " COUNT III OF THE SECOND
AMENDED INFORMATION " & " COUNT V IN A SECOND AMENDED INFORMATION ", as seen in the
B.O.E. PAGE 68:10-24. These two " VOID AND NULL " nonexisting Offense's, Indictment's
and Information don't exist on the record, nor was they filed on the record by the
State, nor was they amended on the record to the " SECOND AMENDED INFORMATION " by
the State, nor was they put forth on the Petitioner's Contract/Plea Agreement, as
seen in the B.O.E. PAGE'S 53:4-14; 53:15-18 & 54:6-17, nor did the Petitioner agree
to or understand that he was going to be charged and plead guilty to these VOID and
8.

UNCONSTITUTIONAL nonexisting Offense's, Indictment's and Information of " COUNT III
OF THE SECOND AMENDED INFORMATION " & " COUNT V IN A SECOND AMENDED INFORMATION "
that was charged to the Petitioner, as seen in the B.O.E. PAGE 68:10-24.

The District Court Of Sarpy County, Nebraska didn't have any Jurisdiction
over these two VOID and UNCONSTITUTIONAL nonexisting Offense's, Indictment's and
Information of " COUNT III OF THE SECOND AMENDED INFORMATION " nor " COUNT V IN A
SECOND AMENDED INFORMATION " because they don't exist on the record, nor is there
any record of the State ever amending " COUNT III " & " COUNT V " to the " SECOND
AMENDED INFORMATION ", as seen in the B.O.E. PAGE 56:2-25 & (T22). The " SECOND
AMENDED INFORMATION " only apply to that new " COUNT IV AMENDED ", and therefore
the Judge can't charge the Petitioner with something that don't exist on the record
as an Offense, Indictment nor Information, nor was these two put forth on the record
as being apart of the Petitioner's Contract/Plea Agreement, as seen in the B.O.E.
PAGE'S 53:4-14; 53:15-18 & 54:6-17, nor is the Petitioner on the record agreeing to
or understanding that he was going to be charged and plead guilty to these two,
as seen in the B.O.E. PAGE'S 54:21-25 & 55:1-4.

The District Court Of Sarpy County, Nebraska

didn't have any Personal

Jurisdiction over the Petitioner once the Petitioner was charge with those two VOID
and UNCONSTITUTIONAL nonexisting Offense's, Indictment's and Information of " COUNT
III OF THE SECOND AMENDED INFORMATION " & " COUNT V IN A SECOND AMENED INFORMATION ",
and thus the District Court didn't have any Legal Basis to impose any sentence in
this matter and because of this, the District Court, did exceed it's Unlawful Authority
in this matter by passing Judgment on a " VOID AND NULL " Sentence, Judgment,
Conviction and Commitment, and pursuant to Neb. Rev. Stat. § 29-2801, the Petitioner
is entitled to his discharge and the Writ is a matter of right based on the facts

9.

In the State's Motion For Summary Affirmance, the State is trying to make it
as if the " SECOND AMENDED INFORMATION " don't matter, but the truth of the matter
is, the " SECOND AMENDED INFORMATION " means everything in this matter, because the
State was granted leave for the second time to amend that " COUNT IV " ( ORIGINAL
INFORMATION ), as seen in the B.O.E. PAGE 56:2—25 & (T22) to remove that language
of " RECKLESSY CAUSE SERIOUS BODILY INJURY " and by doing so, the " NATURE " & "
IDENTITY " of that offense changed from an UNINTENTIONAL CRIME to a INTENTIONAL
CRIME and it was than known and labelled on the record by the State as " COUNT IV
AMENDED " " SECOND AMENDED INFORMATION ", as seen in the B.O.E. PAGE 56:2-25 & (T22).

As seen in State V. Ring, 233 Neb. 720.:(.(1980-)'andi.Statei y.VPrdett, . 263t;;3
Neb. 99 (2002), wherein the Nebraska Supreme Court held that " reckless commission
of an offense cannot support a use of a weapon charge because recklessness denotes
an unintentional state of mind, and use of a weapon is an intentional crime. "

As seen
VOID

in the B.O.E. PAGE 68:4-9, the Petitioner was charged with that

and UNCONSTITUTIONAL nonexisting Offense, Indictment and Information of

" COUNT IV " ( ORIGINAL INFORMATION )! Now as seen on the record, this Original
Information of " COUNT IV " still has that " UNINTENTIONAL " state of mind attached
to it, and thus the Petitioner was charged with an " UNINTENTIONAL " offense that
cannot support a use of a weapon charge! That language of " RECKLESS " is still
in that VOID and UNCONSTITUTIONAL nonexisting Offense, Indictment and Information
that was charged to the Petitioner and,therefore that VOID and UNCONSTITUTIONAL
nonexisting Offense, Indictment and Information of " COUNT III OF THE SECOND AMENDED
INFORMATION " cannot be attached to that VOID and UNCONSTITUTIONAL nonexisting
Offense, Indictment and Information, of.." COUNT IV " ( ORIGINAL INFORMATION ). It
was Plain Error and it was Unconstitutional for the District Court to charge and
find the Petitioner guilty and to impose, a sentence in this matter just off of that
10.

fact alone! Even if the Judge had charged the Petitioner with the Correct Use Of
A Weapon ( COUNT III ) the Petitioner was still charged with that ABANDONED and
DISMISSED VOID and UNCONSTITUTIONAL nonexisting Offense, Indictment and Information
of " COUNT IV " ( ORIGINAL INFORMATION ), as seen in the B.O.E. PAGE 68:4-9 and
it does still have that " RECKLESS " language in it.

The Petitioner was never charged with the Correct and only existing
Offense, Indictment and Information of " COUNT IV AMENDED " that don't have that
UNINTENTIONAL state of mind in it that exist on the record and thus the Petitioner
has been illegally incarcerated to a charge of " COUNT IV " ( ORIGINAL INFORMATION )
that no longer exist on the record, after the State was granted leave for the
second time to amend
(T22).

that " COUNT IV ", as seen in the B.O.E. PAGE 56:2-25 &

The Petitioner was never charged with the Correct and only existing

Offense's, Indictment's and Information of " COUNT III " & " COUNT V " that exist
on the record, as seen in the B.O.E. PAGE 68:10—24, the Petitioner was charged
with that VOID and UNCONSTITUTIONAL nonexisting Offense's, Indictment's and
Information of " COUNT III OF THE SECOND AMENDED INFORMATION " & " COUNT V IN A
SECOND AMENDED INFORMATION " that don't exist on the record, nor was filed on the
record as a " COUNT III OF THE SECOND AMENDED INFORMATION " & " COUNT V IN A SECOND
AMENDED INFORMATION " by the State, as seen in the B.O.E. PAGE 56:2-25 & (T22),
nor was this put forth on the record as being apart of the Petitioner's Contract/
Plea Agreement, as seen in the B.O.E. PAGE’S 53:4-14; 53:15-18 & 54:6-17, nor did
the Petitioner agree to or understand that he was going to be charged with these
VOID and UNCONSTITUTIONAL nonexisting Offense's, Indictment's and Information of
" COUNT III OF THE SECOND AMENDED INFORMATION " & " COUNT V IN A SECOND AMENDED
INFORMATION

, as seen in the B.O.E. PAGE'S 54:21—25 & 55:1—4 and thus the Petitioner

has been illegally incarcerated to a charge

of " COUNT III OF THE SECOND AMENDED

INFORMATION " & " COUNT V IN A SECOND AMENDED INFORMATION " that don't exist.
11.

" HABEAS CORPUS WRIT, PROVIDES ILLEGALLY DETAINED PRISONER'S WITH A MECHANISM
FOR CHALLENGING THE LEGALITY OF A PRISONER'S IMPRISONMENT, AND CUSTODIAL
DEPRIVATION OF HIS LIBERTY " Canton V. State, 291 Neb. 939, 869 N.W. 2d 911
(2015).

" HABEAS CORPUS IS A PROPER REMEDY TO USE WHEN ONE SEEKS RELEASE UPON A
SHOWING THAT THE JUDGMENT, SENTENCE, AND COMMITMENT ARE VOID " Mingus V. Fairbanks,
1982, 211 Neb. 81, 317 N.W. 2d 770.

To charge and sentence the Petitioner on these three VOID and UNCONSTITUTIONAL
nonexisting Offense's, Indictment's and Information was " VOID AND NULL " because
this was a Breach Of Plea Agreement and thus was a " PLAIN ERROR " and everything
following that breach is now " VOID AND NULL " and that does include the Sentence,
Judgment, Conviction and Commitment. The Petitioner has brought a Collateral.
Attack pursuant to Neb. Rev. Stat. § 29-2801 and thus the Petitioner is entitled
to his discharge pursuant to statue and that writ is a matter of right based upon ;1
the facts.

A judgment of guilty is a necessary prequisite for a sentence to be
pronounced, and failure to obtain a conviction prior to sentencing a defendant is a
violation of the due process rights guaranteed to citizens by the U.S. and Nebraska
Constitutions. See In re winship, 397 U.S. 358, 364, 90 S. Ct. 1068, 1072, 25 L. Ed.
2d 368 (1970) (holding, " Due Process commands that no man shall lose his liberty
unless the government has born the burden of...convincing the factfinder of his guilt,
”) quoting Speinser V. Randall, 357 U.S. 513, 785 S. Ct. 1332, 2 L. Ed. 2d 1460 (1958).

12.

The U.S. Constitution, Amendment V and XIV; Neb. Const. Art. I § 3, In a criminal
case, due process of law requires that a defendant be discharged unless found guilty.
See Dutiel V. State, 135 Neb. 811, 284 N.W. 321 (1939). To sentence a defendant
without a substantial right of the defendant, and to leave this uncorrected would
damage the integrity of the judicial process and this is " Plain Error " that leaves
the conviction and sentence " Null and Void ", as ruled by the court decision in,
State V. Engleman, 5 Neb. App. 484, 560 N.W. 2d 851 (Neb.App. 1997) Also see State V.
Long, 205 Neb. 252, 286 N.W. 2d 772 (1980).

There is no record of the District Court Of Sarpy County, Nebraska ever charging
the Petitioner with the Correct and only existing Offense's, Indictment's and Infor­
mation of " COUNT IVj?AMENDED ", " COUNT III " & " COUNT V ", as seen in the B.O.E. .
PAGE 68:4-25, the Petitioner was charged with three VOID and UNCONSTITUTIONAL nonexisting Offense's, Indictment's and Information of " COUNT IV " ( ORIGINAL INFORMATION )
, " COUNT III OF THE SECOND AMENDED INFORMATION " & " COUNT V IN A SECOND AMENDED
INFORMATION ", and non of these exist on the record, nor was put forth on the record
as being apart of the Contract/Plea Agreement, nor is there a record of the Petitioner
agreeing to or understanding that he was going to be charged and plead guilty to these
VOID and UNCONSTITUTIONAL charges.

There is no record of the District Court Of Sarpy County, Nebraska ever
accepting the Petitioner's guilty plea to that VOID and UNCONSTITUTIONAL nonexisting
Offense, Indictment and Information of " COUNT IV " ( ORIGINAL INFORMATION ) that was
charged to the Petitioner, as seen in the B.O.E. PAGE 68:4-9, but the record does
reflect that the Court had accepted a guilty plea to a " COUNT IV OF THE SECOND AMENDED
INFORMATION ", as seen in the B.O.E. PAGE'S 74:25 & 75:1—3, even-though the Petitioner
was never charged with a " COUNT IV AMENDED " nor a " COUNT IV OF THE SECOND AMENDED
INFORMATION ". So how can the Court accepted a guilty plea for a " COUNT IV OF Tiff
13.

AMENDED INFORMATION " when that was never charged to the Petitioner? The Petitioner
was charged with that VOID and UNCONSTITUTIONAL ABANDONED and DISMISSED " COUNT IV "
( ORIGINAL INFORMATION ) that no longer exist on the record, nor was apart of the
Contract/Plea Agreement, nor is there any record of the Petitioner agreeing to or
understanding that he was going to be charged and plead guilty to that and because
of Trial Court's failure to render judgment of guilty to the charge that the Petitioner
was charged with by the Court ( " COUNT IV " ORIGINAL INFORMATION ) did rendered the
sentence imposed on the Petitioner " VOID AND NULL " and under the Plain Error
Doctrine, no judgment of guilt has been rendered against the Petitioner, the District
Court Of Sarpy County, Nebraska improperly sentence the Petitioner and the sentence
imposed is " VOID AND NULL

In a criminal case, due process of law requires that a

defendant be discharged unless found guilty. See Dutiel V. State, 135 Neb. 811, 284
N.W. 321 (1939) and there is no record of the Petitioner being found guilty of that
charge of " COUNT IV " ( ORIGINAL INFORMATION ) that was charged to the Petitioner,
as seen in the B.O.E. PAGE 68:4-9, and thus there is no record of guilty and thus
the Petitioner has been deprived of his Liberty by means of a " VOID AND NULL "
Sentence, Judgment, Conviction and Commitment that was obtained in violation of the
Petitioner's right to Due Process.

There is no record of the District Court Of Sarpy County, Nebraska ever
charging the Petitioner with a " COUNT III " but the record does reflect that the
Petitioner was charged with that VOID and UNCONSTITUTIONAL nonexisting Offense,
Indictment and Information of " COUNT III OF THE SECOND AMENDED INFORMATION ", as seen
in the B.O.E. PAGE 68:10-17, but the record reflects that the Court had accepted the
Petitioner's guilty plea to that VOID and UNCONSTITUTIONAL " COUNT III OF THE SECOND
AMENDED INFORMATION ", as seen in the B.O.E. PAGE'S 74:25; 75:1 & 75:4-7, even-though
" COUNT III OF THE SECOND AMENDED INFORMATION " don't exist on the record, nor was
" COUNT III " ever amended on the record by the State, as seen in the B.O.E. PAGE
14.

56:2-25 & (T22), and the State never amended " COUNT III " to the " SECOND AMENDED
INFORMATION ", nor was this put forth on the record as being apart of the Petitioner's
Contract/Plea Agreement, as seen in the B.O.E. PAGE'S 53:4-14; 53:15-18 & 54:6-17, nor
did the Petitioner agree to or understand that he was going to be charged and plead
guilty to this, as seen in the B.O.E. PAGE'S 54:21-25 & 55:1-4.

So how can the District Court Of Sarpy County, Nebraska can charge and find
the Petitioner guilty to something that don't exist on the record? " COUNT III OF
THE SECOND AMENDED INFORMATION " don't exist on the record, nor did the State ever
file this on the record! There is no such Offense, Indictment nor Information as
" COUNT III OF THE SECOND AMENDED INFORMATION ", as seen in the B.O.E. PAGE 56:2-25
& (T22) the State never amended " COUNT III " nor was it amended to the " SECOND
AMENDED INFORMATION ". There is no record of a " COUNT III OF THE SECOND AMENDED
INFORMATION ", so how can the Petitioner be charged and found guilty to something
that don't exist? By doing so, the District Court Of Sarpy County, Nebraska don't
have a Sound nor Just guilty plea on the record and under the Plain Error Doctrine,
no judgment of guilt has been rendered against the Petitioner and the .District Court
Of Sarpy County, Nebraska improperly sentence the Petitioner and the sentence imposed
is " VOID AND NULL ". Trial Court's failure to render judgment of guilt to the Correct
and only existing Offense, Indictment and Information of " COUNT III " that was never
charged to the Petitioner, as seen in the B.O.E. PAGE 68:10-17, did rendered the
sentence " VOID AND NULL ". In a criminal case, due process of law requires that a
defendant be discharged unless found guilty. See Dutiel V. State. 153 Neb. 811, 284
N.W. 321 (1939). There is no record of guilt to the Correct and only existing Offense,
Indictment and Information of " COUNT III ".

There is no record of the District Court Of Sarpy County, Nebraska ever
charging the Petitioner with a " COUNT V " but the record does reflect that the
15.

Petitioner

was charged with that VOID and UNCONSTITUTIONAL nonexisting Offense,

Indictment and Information of " COUNT V IN A SECOND AMENDED INFORMATION ", as seen
in the B.O.E. PAGE 68:18-24. The record does show that the Court had accepted a guilty
plea to a " COUNT V ", as seen in the B.O.E. PAGE'S 74:25; 75:1 & 75:8-9, but as seen
on the record in the B.O.E. PAGE 68:18-24, the Petitioner was never charged with that
" COUNT V ", the Petitioner was charged with that VOID and UNCONSTITUTIONAL " COUNT
V IN A SECOND AMENDED INFORMATION "

even-though this don't exist on the record, nor

was " COUNT V " ever amended on the record by the State, as seen in the B.O.E. PAGE
56:2—25 & (T22), and the State never amended " COUNT V " to the " SECOND AMENDED
INFORMATION ", nor was this put forth on the record as being apart of the Petitioner's
Contract/Plea Agreement, as seen in the B.O.E. PAGE'S 53:4-14 & 53:15—18 & 54:6—17,
nor did the Petitioner agree to or understand that he was going to be charged and
plead guilty to this, as seen in the B.O.E. PAGE'S 54:21—25 & 55:1-4.

So how can the District Court Of Sarpy County, Nebraska can charge the
Petitioner with a VOID and UNCONSTITUTIONAL nonexisting Offense, Indictment and
Information?

How can the Court accept a guilty plea to a " COUNT V " and the record

reflect that the Petitioner was never charged with that " COUNT V "? The record only
reflect that the Petitioner was charged with that VOID and UNCONSTITUTIONAL Offense,
Indictment and Information of " COUNT V IN A SECOND AMENDED INFORMATION ", as seen in
the B.O.E. PAGE 68:18-24, Trial Court's failure to render judgment of guilt to the
charge that the Petitioner was charged with ( COUNT V IN A SECOND AMENDED INFORMATION )
did rendered the sentence imposed on the Petitioner " VOID AND NULL " and under Plain
Error Doctrine, no judgment of guilt has been rendered against the Petitioner, the
District Court Of Sarpy County, Nebraska improperly sentence the Petitioner and the
sentence imposed is " VOID AND NULL ". In a criminal case, due process of law requires
that a defendant be discharged unless found guilty. See Dutiel V. State, 135 Neb. 811,
284 N.W. 321 (1939) and there is no record of the Petitioner being found guilty of
16.

that charge of " COUNT V IN A SECOND AMENDED INFORMATION " that was charged to the
Petitioner, as seen in the B.O.E. PAGE 68:18-24, and thus there is no record of guilty
and thus the Petitioner has been deprived of his Liberty by means of a " VOID AND NULL "
Sentence, Judgment, Conviction ;and Commitment that was obtained in violation of the
Petitioner's right to Due Process. How.can the District Court Of Sarpy County, Nebraska
charge the Petitioner with something that don't exist on the record? and than find
the Petitioner guilty to something other than what the Petitioner was charged with?

The Petitioner has shown cause of action for his discharge, based upon the
facts, facts that

prove and show that the judge failed .to charge the Petitioner with

the Correct and only existing Offense's, Indictment's and Information of " COUNT IV
AMENDED ", " COUNT III " & " COUNT V ", as seen in the B.O.E. PAGE 68:4-24 the Petit­
ioner was charged with three VOID and UNCONSTITUTIONAL nonexisting Offense's, Indict­
ment's and Information of " COUNT IV " ( ORIGINAL INFORMATION ), " COUNT III OF THE
SECOND AMENDED INFORMATION " & " COUNT V IN A SECOND AMENDED INFORMATION " that don't
exist on the record, nor was put forth on the record as being apart of the Petitioner's
Contract/Plea Agreement, as seen in the B.O.E. PAGE'S 53:4-14; 53:15-18 & 54:6-17, nor
did the Petitioner agree to or understand that he was going to be charged with these
VOID and UNCONSTITUTIONAL charges, as seen in the B.O.E. PAGE'S 54:21-25 & 55:1-4, and
thus the Petitioner is being illegally incarcerated by the State Of Nebraska and the •
Nebraska State Penitentiary don't have Legal Authority over the Petitioner, and there- a
fore the Petitioner is entitled to discharge pursuant to Neb. Rev. Stat. § 29-2801.

The Commitment Order that was given, as seen in the B.O.E. PAGE'S 92:5-8;
92:9—12 & 92:13—15, is " VOID AND NULL " because a Breach Of Plea Agreement is a "
PLAIN ERROR " and everything following that Breach Of Plea Agreement is " VOID AND
NULL " and that does include the Sentence, Judgment, Conviction and Commitment. This
Commitment Order is also " VOID AND NULL " because the Judge failed to charge the
17.

Petitioner with the only Correct and existing Offense's, Indictment's and Information
of " COUNT IV AMENDED ", " COUNT III " & " COUNT V " that was put forth on the record,
as seen in the B.O.E. PAGE 56:2—25 & (T22), that was put forth on the record as being
apart of the Petitioner's Contract/Plea Agreement, as seen in the B.O.E. PAGE'S 53:414; 53:15—18 & 54:6—17, and to what the Petitioner did agree to and understand what
he was going to be charged with, as seen in the B.O.E. PAGE'S 54:21-25 & 55:1-4.

The Judge failed to charge the Petitioner with any existing Offense,
Indictment nor Information and thus illegally incarcerated the Petitioner to three
VOID and UNCONSTITUTIONAL Offense's, Indictment's and Information of " COUNT IV "
( ORIGINAL INFORMATION ), " COUNT III OF THE SECOND AMENDED INFORMATION " & " COUNT
V

IN A SECOND AMENDED INFORMATION " that don't exist on the record at all! and thus

the District Court Of Sarpy County, Nebraska didn't have any Jurisdiction over these
three VOID and UNCONSTITUTIONAL nonexisting Offense's, Indictment's and Information
that don,'t exist, and the District Court Of Sarpy County, Nebraska don't.have any
Personal Jurisdiction over the Petitioner, and therefore the District Court Of Sarpy
County, Nebraska didn't have any Legal Basis and did exceed it's Unlawful Authority
in imposing that " VOID AND NULL " Sentence, Judgment, Conviction and Commitment of
70-90 years that deprived the Petitioner of his LIBERTY by means of a " VOID AND NULL "
Sentence, Judgment, Conviction and Commitment that was obtained in violation of the
Petitioner's Right to " Due Process

The Nebraska Supreme Court has held that " in a case of a prisoner held
pursuant to a judgment of conviction, habeas corpus is available as a remedy only upon
a showing that the judgment, sentence, and commitment are void " See In re Application
of Dunn, 150 Neb. 669, 35 N.W. 2d 673; Swanson V. Jones, 151 Neb. 767, 39 N.W. 2d 557.

18.

The Petitioner's Trial Counsel and Direct Appeal Counsel both failed to
raise the issue to the Court that there was Breach Of Plea Agreement and by failing
to do, both Trial Counsel and Direct Appeal Counsel was " INEFFECTIVE " and very
" INCOMPETENT " in this matter and therefore the Petitioner's Sixth Amendment Right
to have " COMPETENT " and " EFFECTIVE " Counsel at a " CRITICAL STAGE " in a ” CRIMINAL
PROCEEDING "

was violated by both Trial Counsel and Direct Appeal Counsel.

Criminal defendant's have a constitutional right to the effective assistance
at trial and for all direct appeals the state grants as of right. Evitts V. Lucey, 469
U.S. 387, 393, 105 S. Ct. 830, 83 L. Ed. 2d 821 (1985); cf. Halbert V. Michigan, 545
U.S. 605, 610, 125 S. Ct. 2582, 162 L. Ed. 2d 552 (2005). Generally speaking, direct
appeals statutes afford the defendant's the opportunity to challenge the merits of a
judgment and allege errors of law or fact. U.S. V. Addorizio, 442 U.S. 178, 185, 99
S. Ct. 2235, 60 L. Ed. 805 (1979),

" To bar collateral review , the plea agreement must clearly state that the
defendant waives his right to collaterally attack his conviction or sentence in add­
ition to waiving his right to a direct appeal. " Keller V. U.S., 657 F. 3d. 675, 681
(7th Cir. 2011)

The Petitioner was not afforded an effective appeal on Direct Appeal, because
Direct Appeal Counsel failed to raise the Breach Of Plea Agreement issue in the Petit­
ioner's Direct Appeal, and Direct Appeal Counsel failed to raise any. issue against
Trial Counsel for Ineffective Of Assistance for his failure to raise the issue of the
Breach Of Plea Agreement to the Court at the time of the breach. Had Trial Counsel
timely objected and filed a Motion To Withdraw the Petitioner's three guilty plea's to
those three VOID and UNCONSTITUTIONAL nonexisting Offense's, Indictment's and Informa-r...
tion, the outcome of this matter would have been different because the Petitioner
19.

would have been given the option to go to trial on the original charges. The Petitioner
was also entitled to other remedies such as, Motion To Quash, Motion For Arrest Of
Judgment, Motion To Demurrer, Motion To Withdraw Plea and non of these Motions was
filed by Trial Counsel on behalf of the Petitioner. The Petitioner had a right to
these remedies once that Breach Of Plea Agreement had occurred and Trial Counsel failed
to timely object and file any Motion on behalf of the Petitioner and thus this did
affect the Petitioner's Substantial Right's, because the Petitioner has been illegally
incarcerated to three VOID and UNCONSTITUTIONAL Offense's, Indictment's and Information.

The Petitioner's Direct Appeal Counsel also violated the Petitioner's Sixth
Amendment Right to " COMPETENT " and " EFFECTIVE " Counsel at a " CRITICAL STAGE " in
a " CRIMINAL PROCEEDING ", when Direct Appeal Counsel also failed to raise the issue
of the Breach Of Plea Agreement on behalf of the Petitioner in the Petitioner's
Direct Appeal, this matter would have been reviewed on Direct Appeal for " PLAIN ERROR
and all the Ineffective Assistance Claims would have been reviewed by the Supreme
Court de novo! Both Trail Counsel and Direct Appeal Counsel deficient performance
gives rise to a reasonable probability that, but for Counsel's error's the result's of
the proceedings would have been different.

Exceptional Circumstances are present in this matter,.because.thte.recordtidoes
reflect that the Judge failed to charge the Petitioner with the Co.rreeti.and Only
existing Offense's, Indictment's and Information and thus charged the Petitioner with
three VOID and UNCONSTITUTIONAL nonexisting Offense's, Indictment's and Information
that don't exist on the record. This was also a Breach Of Plea Agreement and everything
following that Breach is " VOID AND NULL " which does include the Sentence, Judgment,
Conviction and Commitment and therefore the District Court Of Sarpy County, Nebraska
didn't have any Jurisdiction in this matter, nor any Personal Jurisdiction over the
Petitioner in this matter and there was no Legal Basis in this matter and thus the
20.

District Court Of sarpy County, Nebraska did exceed it's Unlawful Authority in imposing
any sentence in this matter.

Neb. Rev. Stat. § 29-2823 " SAID DEFENDANT MAY BE ADMITTED TO BAIL PENDING
DISPOSITION OF SAID APPEAL AS IS OTHERWISE PROVIDED BY LAW " This matter is still
pending of a final disposition and Bail is never to be denied for the purpose of
punishment, but it is to insure a defendant's appearance and submission to the judgment
of the Court. The Eight and Fourtheeth Amendments, require that a Motion For Bail not
be denied Arbitrarily or Unreasonably to those who apply for it. The Petitioner show
facts of law, facts that show and prove that the Petitioner has been deprived his
LIBERTY by means of a " VOID AND NULL 9' Sentence, Judgment, Conviction and Commitment
that was rendered by the District Court Of Sarpy County, Nebraska.

The denial

of a application for bail pending appeal on a State Habeas

without a stated reason, does violate the Right's of Due Process in this matter
because the Petitioner still has a right to bail because the record does reflect that
the Petitioner don't stand convicted pn a Sound nor Just Felony Conviction and thus
the Petitioner still has a right to bail. The Petitioner's Petition For Writ Of Habeas
Corpus & Emergency Ex Parte Motion For Bond Pending Petition For Writ Of Habeas Corpus
was denied on 03/03/2020 by the Lancaster County District Court Judge Robert R. Otte
and in that order;there was no reason given as to why the Petitioner's Emergency Ex
Parte Motion For Bond was denied, it wasn't until 04/06/2020 that the Petitioner
received an Order Denying Bond On Appeal, and the failure to do so on 03/03/2020 was
Arbitrarily and Unreasonably. In that Order that was given on 04/06/2020 it was stated
by the Judge that " [T]he right to bail, after conviction,. is .. discretionary..and not
absolute. Once a defendant has been convicted of the felony.charge, he is not entitled
to be released on bail. Such determination is left to the discretion-.of the trial
court[.] "
21.

This stated reason doesn't apply to the Petitioner in this matter.,- because
the facts of this case does prove and show that the Petitioner don't stand convicted
on any Sound nor Just Felony Offense that exist on the record, nor to what was put
forth on the record as being apart of the petitioner's Contract/Plea Agreement, nor
to what the Petitioner had agreed to and understood to what

the Petitioner was going

to be charged with.

The Provision Of Section 9, Art I, Of The Constitution states that

" ALL

PERSONS shat.t. BE BAILABLE BY SUFFICIENT SURETIES ", etc adds nothing to the law of the
subject, but is merly the declaration of am existing right. The Petitioner still has
this existing right, when the record show and prove that the Petitioner isn't legally
committed to any Sound nor Just Felony Conviction. The Petitioner is a Bailable person
under Ne. Rev. Stat. Const. Art I, § 9, and even under the 1978 bail amendment it
states " that it does not constitute cruel and unusual punishment ", and that denial
for bail that was rendered in this matter was cruel and unusual punishment when the
Petitioner was Arbitrarily denied that bond on 03/03/2020 and on that Order that was
given on 04/06/2020 because the Petitioner isn't Legally Convicted on a Sound nor Just
Felony Conviction and thus

the Petitioner still has that right to bail in this matter.

The Petitioner has a fundamental right to " Equal Protection " against wrongful rest­
raints against his LIBERTY and a right to Due Process in this matter, and to deny bail
in this matter was in violation of the Petitioner's State and federal Constitutional
Right's Of " Equal Protection " and his right to " Due Process ".

The Petitioner's Writ Of Certiorari is now pending In The Supreme Court
Of The United States For The State Of Nebraska and under Neb. Rev. Stat. § 29-2823
is states that " SATU DEFENDANT MAY BE ADMITTED TO BAIL PENDING DISPOSITION OF SAID
APPEAL AS IS OTHERWISE PROVIDED BY LAW " and this matter is now waiting on a final
disposition of said appeal with this Court. The Petitioner has no criminal charges
22.

pending, the Petitioner isn't Legally Convicted on any Sound nor Just Felony Convict*:;:,
ion, the Petitioner is showing in this matter that this Writ Of Certiorari is not the
purpose of delay and it raises a Substantial question of law or facts likely to result
in (i) Reversal, (ii) An order for a new trial, (iii) A sentence that does not include
a term of imprisonment or the right to the Petitioner's discharge or, (iv) A reduced
sentence to a term of imprisonment less than the total of the time already served plus . h
the expected duration of the appeal process. The Petitioner has shown not only a
Substantial claim of law based on the facts surrounding the Writ Of Certiorari, but
also the existence of some circumstance making the Motion For Bond EXCEPTIONAL and
DESERVING of special treatment in the Interest Of Justice.

" Bail will be allowed in the Supreme

Court

on the showing of probable

error calling for a reversal of the judgment. " See Ford V. State 42 Neb. 418 60 N.W.
960 (1894), to deny bail in this matter, when the record does show a probable error
that does call for reversal and the discharge of the Petitioner in this matter would
be ERRONEOUS, because the record does reflect that the Judge had charged the Petitioner
with three VOID and UNCONSTITUTIONAL nonexisting Offense's, Indictment's and Information
, as seen in the B.O.E. PAGE 68:4-24.

Do to the facts of this case, the Petitioner's request for bail pending
the Petition For Writ Of Certiorari should be granted in this matter. The Petitioner
does respectfully ask this Court to set an Appeal Bond in favor of the Petitioner
in this matter.

23.

REASONS FOR GRANTING THE PETITION
Pursuant to Neb. Rev. Stat. § 29-2801 " An action for Habeas Corpus is a collateral
attack on a judgment of conviction, only a void judgment may be collaterally attacked "
Habeas Corpus is a proper remedy where one is deprived of his liberty by reason
. of a void judgment "..see Ex parte Maher, 1994, 144 Neb. 484, 13 N.W. 2d -653
Habeas Corpus is a special civil proceeding providing a summary remedy to persons
illegally detained " see Johnson V. Gage, 2015, 858 N.W. 2d 837, 290 Neb. 136
" habeas Corpus requires the showing of legal cause, that is, that a person is
detained illegally and is entitled to the benefits of the writ " see Tyler V.
Houston, 2008, 744 N.W. 2d 410, 274 Neb. 916.

" Habeas Corpus is proper means of

collaterally attacking validity of allegedly void judgment of conviction " see
Bradley V. Hopkins, 1994, 246 Neb. 646. 522 N.W. 2d 394.

The Petitioner in this matter is entitled to his discharge pursuant
to Neb. Rev. Stat. § 29-2801, when the Petitioner has shown cause of action and
facts that entitle him to the Writ. The Petitioner is being illegally incarcerated
by the State Of Nebraska, and is being deprived of his LIBERTY by means of a " VOID
AND NOLL " Sentence, Judgment, Conviction and Commitment that was all obtained in
violation of the Petitioner's Constitutional Right's. Once that Breach Of Plea
Agreement had occurred, the District Court Of Sarpy County, Nebraska had lost all
Jurisdiction over the subject matter, lost all Personal Jurisdiction over the
Petitioner, and didn't have any Legal Basis to impose any sentence in this matter.

The Judge failed to charge the Petitioner with the only and Correct
Offense's, Indictment's and Information that exist on the record as " COUNT IV
AMENDED

, " COUNT III " & " COUNT V ", as seen in the Petitioner's

B.O.E. PAGE

68:4—24. The Petitioner was charged with three VOID and UNCONSTITUTIONAL nonexisting
24.

Offense's, Indictment's and Information of " COUNT IV " ( ORIGINAL INFORMATION ),
" COUNT III OF THE SECOND AMENDED INFORMATION " & " COUNT V IN A SECOND AMENDED
INFORMATION ", as seen in the Petitioner's B.O.E. PAGE 68:4-24. These three VOID
and UNCONSTITUTIONAL nonexisting Offense's, Indictment's and Information don't exist
on the record, as seen in the B.O.E. PAGE 56:2-25 & (T22), nor was this put forth on
the record as being apart of the Petitioner's Contract/Plea Agreement, as seen in the
B.O.E. PAGE'S 53:4-14; 53:15-18 & 54:6-17, nor did the Petitioner agree to or under­
stand that he was going to be charged with this, as seen in the B.O.E. PAGE'S 54:21-25
& 55:1-4 and therefore the Petitioner's guilty plea's cannot be considered Knowingly
or Intelligently in this matter.

The Petitioner has been Illegally Incarcerated to three VOID and UNCONSTITUTIONAL
nonexisting Offense's, Indictment's and Information that don't exist on the record,
and this was a Breach Of Plea Agreement because these three VOID and UNCONSTITUTIONAL
nonexisting Offense's, Indictment's and Information was not put forth on the record
a’s being apart of the Petitioner's Contract/Plea Agreement and thus was also a " PLAIN
ERROR " and that also rendered everything in the proceedings " VOID AND NULL " which
does include the Sentence, Judgment, Conviction and Commitment in this matter. The
Petitioner only remedy in this matter is to be discharged pursuant to Neb. Rev, Stat.
§ 29-2801 because the Petitioner has been denied his LIBERTY by means of a " VOID AND
NULL " Sentence, Judgment, Conviction and Commitment.

The Petitioner has shown cause of action for his discharge pursuant to Neb.
Rev. Stat. § 29-2801, and that Writ is a matter of right! The Petitioner is requesting
that the right to the Writ is upheld by this Court.

25.

Pursuant to Neb. Rev. Stat. § 29-2801, the Petitioner in this matter, is
entitled to the Writ and is entitled to discharge pursuant to statue, when the Petitioner
has shown cause of action for his discharge and thus this-Writ is a matter of right,
based upon the facts, that prove and show that the Petitioner has been

i-.of his

LIBERTY by means of a " VOID AND NULL " Sentence, Judgment, Conviction and Commitment
that was obtained in violation of the Petitioner's Right to Due Process. The Petitioner
is seeking that this Court overturn the decision of the lower Court's, and to grant
the Petitioner his discharge pursuant to Neb. Rev. Stat. § 29-2801. The Petitioner also
seeks that this Court grant's the Petitioner's Motion For Appeal Bond pending the
disposition of this appeal.

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,
ABDUR-RASHTD MITHAMMAD 73537

Date: __ &i joi

NOTARY:

X

Jacno

GENERAL NOTARY - State of Nebraska
TOM PFEIFER
g* My Comm. Exp. March 10.2021

X

26.

DATE: *8 1 bzT-P

